           U.S. Department of
                                                      Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Report on Oversight of                             Date:    February 28, 2003
           Security Screener Contracts, TSA
           FI-2003-025

  From:    Alexis M. Stefani                                       Reply to
                                                                   Attn. of:   Meche: x61496
           Principal Assistant Inspector General
             for Auditing and Evaluation

    To:    Under Secretary of Transportation for Security

           This report presents our audit results on the Transportation Security Administration's
           (TSA) oversight of security screener contracts. This audit was initiated in response to
           concerns raised at an oversight hearing before the House Subcommittee on
           Transportation Appropriations on April 17, 2002. Our audit objectives were to
           evaluate whether (1) rates charged to TSA were supported by contractor records and
           were in accordance with contract requirements, (2) contractor invoices were
           supported, and (3) oversight and administration of screener contracts were effective.
           Our scope and methodology are discussed in Exhibit A.

           INTRODUCTION

           On November 19, 2001, the President signed the Aviation and Transportation
           Security Act (the Act) that created TSA. The Act required that TSA assume control
           of security screening at the Nation's 429 airports no later than 3 months after the date
           of enactment, and perform passenger screening at airports with a Federal workforce
           by November 19, 2002. TSA began paying for contract passenger screening services
           on February 17, 2002. Because TSA did not yet have the staffing or infrastructure for
           the agency, the Federal Aviation Administration (FAA) awarded contracts and
           performed contract administration until August 16, 2002, when TSA assumed
           responsibility for these functions.

           From the first day of TSA's existence, the Department of Transportation (DOT) and
           TSA were faced with many significant challenges and short statutory milestones.
           During the first 3 months, TSA was getting organized and had very few Federal
           employees. New requirements for passenger screening were being developed to
                                                                                     2

ensure more thorough screening of passengers. To meet the requirements by
February 2002, FAA had to issue multiple contracts and agreements for each of the
429 airports. The urgency of the situation required that DOT, FAA, and TSA act
quickly to provide a contract screening workforce until a Federal workforce could be
hired and trained.

To meet the continuing need for security screening, TSA used 74 private companies
that were onsite at airports providing screener services for air carriers. There was not
enough time to award contracts with negotiated rates. Therefore, FAA, on behalf of
TSA, entered into letter contracts. Letter contracts were used because the
Government's interests required that contractors be given binding commitments until
final contract rates could be negotiated.

Contracts were to be based on contractors' costs. Contractors were to propose hourly
billing rates (to include direct costs for employee pay, indirect costs for overhead, and
profit) based on actual costs incurred under agreements with air carriers for similar
services during the previous 12 months. Initially, actual rates were to be negotiated
by May 2002. Because of the weak controls we identified and actual rates had not
been negotiated by July 2002, we issued a memorandum on July 17, 2002,
recommending that TSA hire the Defense Contract Audit Agency (DCAA) to audit
the major screener contracts.

In TSA's January 21, 2003 response to our draft report, the Under Secretary of
Transportation for Security expressed how important it is for our final report to
contain adequate background about how these screener contracts were developed and
managed. The Under Secretary also stated that TSA faced a severe budget crisis
during this time. In August 2002, when TSA assumed the contract administration
from FAA and funding became available, TSA implemented the Office of Inspector
General recommendation to employ DCAA and also engaged the Defense Contract
Management Agency (DCMA) to administer and negotiate the screener contracts.

On November 15, 2002, because these contractors would have been out of the
passenger screening business by November 19, 2002, and the final negotiated rates
could have been substantially less than those proposed by contractors, we made three
additional recommendations in our draft report that TSA (1) withhold payments until
DCAA audits were completed, (2) recover improper payments, and (3) report contract
management as a material internal control weakness. TSA agreed and reported
contract management as a material weakness and withheld more than $90 million in
payments to the high-risk contractors. The Under Secretary's comments are
summarized on pages 12 and 13, and the complete text of management comments is
in the Appendix. We consider the actions taken to be reasonable and responsive to
our recommendations.
                                                                                                                      3

RESULTS IN BRIEF

TSA deployed a Federal workforce to screen passengers at all airports1 by
November 19, 2002, thereby eliminating contract screeners. As of October 23, 2002,
TSA had not negotiated final rates for 61 of the 74 contractors, including all major
contractors.

Increased Billing Rates to TSA. TSA obligated about $1 billion for the 74 security
screener contracts as of October 23, 2002. Our review of contract rates focused on 13
of the 74 contractors2 that accounted for 93 percent of passenger screening costs. Of
the 13 contractors, 7 charged TSA the same rates or slightly higher rates than were
charged to air carriers. The other 6 contractors accounting for 69 percent of the
contract screening costs raised their hourly billing rates ranging from 58 percent to
97 percent above the rates charged to air carriers. Comparing hourly billing rates
charged air carriers to the rates charged TSA, and using the same work hours through
November 19, 2002, we estimate the six contractors would charge TSA about
$305 million3 more than they would have charged air carriers.

The contractors stated that the higher hourly rates resulted from pay raises for
employees and increased overhead costs, such as severance pay, workers
compensation and state unemployment insurance. While the six contractors increased
amounts paid to their employees, we found that two contractors paid employees at pay
rates lower than the rates used to support the increased hourly billing rates. If the two
contractors continued paying employees at the lower rates, we estimate TSA could be
overcharged by about $10 million.

We recognize that overhead costs could be higher. However, we found that none of
the six contractors could provide adequate documentation supporting the higher
overhead costs. About $165 million of the increased payments was attributed to the
higher overhead rates. During our audit, one contractor voluntarily reduced its hourly
billing rates by 10 percent after we visited its corporate headquarters, resulting in a
$9 million savings to the Government. After DCAA completed its audit of this
contractor, the audited rate further reduced the hourly billing rate and resulted in
additional savings of about $32 million.



1
  Federal employees were to perform screening duties at 424 airports by November 19, 2002. The remaining 5 airports will
continue using contract screeners under a pilot program.
2
 Because this information may be considered business confidential, the identity of screener companies and airport locations
we visited are not discussed in this report, but were provided to TSA.
3
  In computing the $305 million, we did not question the contractors' increases in proposed hours to provide additional
passenger security screening.
                                                                                    4

Monitoring of Screener Contracts. Initially, we found oversight and internal
controls over screener contracts were not adequate at the airports we visited. Four of
the six contractors we visited charged TSA for hours not worked performing screener
duties, but these improper charges went undetected because TSA was not monitoring
contractor performance. For example, two contractors charged for 30-minute meal
breaks, which could result in TSA being charged about $4 million for unallowable
meal breaks through November 19, 2002.

We also found contractor employees (1) arriving late or departing early, but signing in
and out as though they worked their scheduled hours; (2) performing nonsecurity
functions (skycap duties) for air carriers while charging time to TSA; (3) being
charged to TSA while they were on vacation or other leave; and (4) being charged
twice. Our results were based on samples at two airports and would not necessarily
be representative of conditions at all contractors and airports. However, the findings
demonstrated weak controls and the need for monitoring these contracts.

In addition to our work, TSA's Office of Inspection performed similar reviews of two
contractors at three different airports and found that internal controls were not
followed, contractors billed for employees who were on vacation, and TSA was
charged for services not performed.

Because these contractors would be out of the passenger screening business by
November 19, 2002, the urgency for corrective actions prompted us to send a
memorandum on July 17, 2002, with a summary of our audit results to the Deputy
Secretary of Transportation, the Under Secretary of Transportation for Security, and
the Assistant Secretary for Budget and Programs. In the memorandum, we
recommended that TSA require contractors to provide cost data and negotiate hourly
billing rates by August 31, 2002; prioritize contractors for audit by DCAA; establish
procedures for TSA representatives to verify hours worked by contractor employees;
and recoup improper payments.

Because progress to obtain contractors' cost data had been slow, and DCAA had not
yet completed audits of any of the 13 contractors as of October 23, 2002, we
recommended in our draft report that TSA withhold payments until DCAA audits
were completed. We also recommended that TSA recover improper payments and
report a material internal control weakness in the Department's 2002 Federal
Managers' Financial Integrity Act report to Congress and the Office of Management
and Budget.

TSA Corrective Actions. TSA agreed with all of our recommendations and is taking
or has already taken corrective actions in response to our audit. In August 2002, TSA
contracted with DCMA and DCAA for contract administration and contract audit
services, respectively. DCAA initiated audits of 14 contractors, including the
                                                                                      5

13 contractors that accounted for 93 percent of passenger screening costs. TSA also
contracted for onsite inspections of security screener contractors at the larger airports.
TSA plans to complete audits of the 14 contracts by February 2003, and had
negotiated 56 of the 74 contracts as of February 26, 2003.

DCAA audits had questioned costs of about $149 million. DCAA also had developed
hourly audited rates for five of the six contractors that had substantially increased
their rates to TSA. Using the audited rates rather than the contractor-billed rates, TSA
will save at least $67 million on the rate changes alone.

TSA also is withholding more than $90 million in payments to the contractors
pending completion of audits and reported contract management of the contract
screener program as a material internal control weakness. TSA plans to complete all
negotiation actions by April 2003.
                                                                                                                       6

FINDINGS AND RECOMMENDATIONS

Six Contractors Substantially Increased TSA Billing Rates

As of October 23, 2002, TSA obligated about $1 billion for 74 security screener
contracts. We focused our audit on 13 contractors that accounted for about 93 percent
of the obligations. We found that 7 of the 13 contractors charged TSA the same rates
or slightly higher hourly billing rates than were charged to air carriers.

However, six contractors accounting for about 69 percent of contract screener costs
increased their hourly billing rates4 by more than 50 percent when TSA took over the
contracts on February 17, 2002. Rate increases for the six contractors ranged from
58 percent to 97 percent above the rates charged air carriers, as shown in Table 1.

                                                Table 1
                             Hourly Billing Rates for Air Carriers and TSA

                                           Hourly Rates
                                              Billed     Hourly Rates                         Percent
                   Contractor              Air Carriers*  Billed TSA*                        Increase
                   Contractor #1             $ 9.83          $19.39                             97
                   Contractor #2             $13.75          $26.00                             89
                   Contractor #3             $14.91          $28.00                             88
                   Contractor #4             $11.11          $19.81                             78
                   Contractor #5             $15.18          $24.77                             63
                   Contractor #6             $13.52          $21.37                             58
                 *Rates by contractor are for passenger screeners at one airport. Cost for passenger
                 screeners at these locations accounted for about 77 percent of total hours.


According to the contractors, the increases in hourly billing rates resulted from pay
raises for employees and higher overhead costs. Guidance to the contractors required
that proposed rates for the letter contracts be based on actual costs incurred under air
carrier agreements during the previous 12 months. However, we found that hourly
pay rates increased from $1 to $4.60 per hour, and overhead and profit rates as a
percentage of the pay rate more than doubled for four of the six contractors, as shown
in Table 2.




4
    Hourly billing rates include direct costs (such as employee pay), indirect costs (such as overhead), and profit.
                                                                                                    7

                                      Table 2
                       Comparison of Overhead and Profit Rates

                                                                                  Overhead
                                    Employee               Hourly Rates           and Profit
                                     Hourly                  Billed to            (Percent of
              Contractor            Pay Rates               Customers1            Pay Rate)
          Contractor #1
          Before Feb 17               $ 6.90                   $ 9.83                   42
          After Feb 17                $11.50                   $19.39                   69
          Contractor #2
          Before Feb 17               $ 9.00                   $13.75                  53
          After Feb 17                $12.00                   $26.00                 117
          Contractor #3
          Before Feb 17               $10.00                   $14.91                  49
          After Feb 17                $14.00                   $28.002                100
          Contractor #4
          Before Feb 17               $ 8.25                   $11.11                   35
          After Feb 17                $11.00                   $19.81                   80
          Contractor #5
          Before Feb 17               $10.00                   $15.18                   52
          After Feb 17                $14.00                   $24.77                   77
          Contractor #6
          Before Feb 17               $ 9.00                   $13.52                  50
          After Feb 17                $10.00                   $21.37                 114
      1
       Rates before February 17 were billed to air carriers, and rates after February 17 were
       billed to TSA.
      2
       After we visited the corporate headquarters, the contractor voluntarily reduced its hourly
       rate to $25.48, effective June 14, 2002.

Contractor Employees Pay Rates

We visited three of the six corporate offices and contacted the other three to obtain
amounts paid to employees before and after February 17, 2002. We found that the six
contractors increased the amounts paid to their employees but two contractors, with
about 9,000 employees at 44 airports, were not paying some of their employees at the
pay rates used to develop the TSA hourly billing rates. For example, contractor #4
was paying its passenger screeners $8.25 per hour at one airport, rather than
$11.00 per hour. When advised of our finding, the contractor stated it would
retroactively pay its passenger screeners at that airport the $11.00 per hour rate. If the
two contractors continued paying employees at the lower rates, we estimate the TSA
could be overcharged by about $10 million. TSA has directed DCMA to ensure that
this issue is addressed during contract negotiations.
                                                                                     8

Increased Overhead Rates

The six contractors that substantially increased the hourly billing rates provided little
or no support to show that overhead rates charged to TSA after February 17 were fair
and reasonable. We determined these higher overhead rates caused increased billings
to TSA totaling about $165 million. Contractors were required to provide specific
cost data, including components and support for the hourly billing rates and actual
costs incurred for the previous 12 months. Contractors established separate hourly
billing rates for each airport. The FAA instructed contractors to reference proposed
amounts in the letter contracts to actual costs incurred.

About 4 months after the letter contracts were signed (and 1 month after the contract
rates were to be negotiated), we visited contractor corporate offices and found the
contractors could provide neither adequate documentation to support overhead costs
incurred nor the basis for the proposed amounts. Rather, contractors based overhead
costs such as general and administrative expenses, general liability insurance,
workers' compensation insurance, and state unemployment insurance on estimates that
were based on percentages of direct labor costs or proposed billing rates. However,
the contractors could not provide documentation to support the rationale for
percentages used, or that the percentages were based on actual costs.

For example, two contractors attributed increased overhead costs to severance pay.
However, we found that severance pay was overstated because the contractors
included costs for employees who were not entitled to severance pay. The Worker
Adjustment and Retraining Notification Act does not require severance pay to
employees hired for less than 6 months or those who work less than 20 hours per
week. One of the two contractors based its increased severance costs on employees
working 240 hours (8 hours per day for 30 days) when employees actually worked far
fewer hours. Also, severance pay would not be required if contractor employees were
given 60 days notice before the contracts expired.

We also found that the screener contractors did not have well-defined cost accounting
systems for allocating overhead costs. However, the proposed billing rates for
overhead and profit appear excessive when compared to rates charged to air carriers.
For this reason, TSA needs to take quick action to review contractor cost data, and
negotiate fair and reasonable hourly billing rates. During our audit, one contractor
voluntarily reduced its initial hourly billing rates by about 10 percent after we visited
its corporate headquarters. We estimate this action will save the Government about
$9 million through November 19, 2002. After DCAA completed its audit of this
contractor, the audited rate further reduced the hourly billing rate and resulted in an
additional savings of about $32 million.
                                                                                                               9

Impact of Increased Hourly Billing Rates

Comparing the hourly billing rates that the six contractors charged TSA to hourly
billing rates charged air carriers, we estimate these six contractors would charge the
Government an additional $305 million through November 19, 2002. Our estimate is
based on assumptions that (1) the increased passenger screener hourly billing rates
were representative of all labor categories for all airports serviced by the contractors,
(2) the contractors would have charged air carriers and TSA for the same number of
hours through November 19, 2002, and (3) the airports would not have been
federalized5 until November 19, 2002.

The six contractors provided screening services to 173 airports and many of these
airports used more than one of the six contractors, including the Nation's largest
airports. As shown in Table 3, the six contractors would be paid from about
$16 million to $127 million more than if they billed TSA the same hourly rates they
billed air carriers before February 17, 2002.

                                            Table 3
                            Impact of Increased Hourly Billing Rates

                                                     TSA           Hourly          Increased
                               Air Carrier          Hourly         Billing         Billings to
                                 Hourly             Billing        Rate              TSA
           Contractor          Billing Rate          Rate          Change          (Millions)

           Contractor #1           $ 9.83            $19.39          $ 9.56           $ 19.1
           Contractor #2           $13.75            $26.00          $12.25           $ 15.9
           Contractor #3           $14.91            $28.00          $13.09           $127.0
           Contractor #4           $11.11            $19.81          $ 8.70           $ 93.1
           Contractor #5           $15.18            $24.77          $ 9.59           $ 26.9
           Contractor #6           $13.52            $21.37          $ 7.85           $ 22.8
            Total                       -                 -               -           $304.8

Monitoring of Contractors

Although we were able to locate all employees who signed in on daily timesheets
during our unannounced floor checks at two airports in May 2002, we initially saw
virtually no monitoring of contractor performance and timesheets by TSA
representatives. TSA was not verifying that contractor employees worked the hours
they recorded and charged to TSA.

5
  We recognize that Federal screeners have been deployed to some locations where the six contractors were providing
screening services. The amount of actual unsupported cost will need to be developed by DCAA audits. As of
October 23, 2002, TSA deployed Federal screeners to 195 of the 429 airports.
                                                                                  10

On the days we made our floor checks, we observed poor controls over timesheet
procedures and contractor performance. For example, one contractor charged TSA
for hours its employees did not work. We saw the contractor's employees arriving
late and departing early, but signing in and out at their regularly scheduled work
hours. We saw another contractor's employees performing nonsecurity functions but
recording their work hours on security timesheets. We traced the nonsecurity hours
recorded on timesheets on the day of our floor checks to total hours charged to TSA.
We identified seven employees who worked nonsecurity jobs (skycap duties) who
were charged to TSA for security work (40 hours at $510). This contractor provided
security services at 95 airports with over 8,000 employees.

At contractor corporate offices, we identified improper charges that went undetected
because TSA was not adequately monitoring contractor practices for recording
employee hours. We traced timesheet hours to payroll records and contractor
invoices and found that:

   • Two contractors charged for 30-minute meal breaks. The Instructions for
     Developing Your Pricing Proposal for Contract Definitization specified that
     meal breaks of 30 minutes or more were not to be compensated as work time,
     and employees were to be considered "off-the-clock." We computed the
     average cost of meal breaks to be $1,344 per day at the two airports we visited.
     Considering that these two contractors had about 11,000 employees at more
     than 70 airports, we estimate that TSA could be charged about $4 million for
     unallowable meal breaks through November 19, 2002.

   • One contractor inappropriately billed for vacation time and other leave for
     eight employees. Contractor officials confirmed that employees were on leave
     and not performing security screening at airports on the days in question. We
     traced the leave hours to contractor invoices charged to TSA.

   • One contractor charged TSA twice for 763 employee hours through April 2002
     at one airport. The contractor recorded employee hours on timesheet
     summaries by employee name as well as by employee position. We computed
     an improper charge of about $15,000.

Our results were based on samples at two airports and would not necessarily be
representative of conditions at all contractors and airports. However, the findings
demonstrated weak controls and the need for monitoring these contracts.

The TSA Civil Aviation Security Operations Plan issued February 15, 2002, required
the Interim Federal Security Representative to provide on-site monitoring of
contractor performance and verify that total hours recorded on contractor time sheets
matched hours on contractor invoices. However, because of the lack of staff and
                                                                                      11

infrastructure, TSA withdrew their guidance so that the focus of its limited staff was
on operational security. As mentioned earlier, no TSA representative verified that
contractor hours were worked and screening services were provided prior to TSA
authorizing payments. TSA officials agreed that on-site monitoring was needed in
light of our audit results. In October 2002, TSA contracted for onsite inspections of
security screener contractors at the larger airports.

Initially, final contracts were to be negotiated by May 2002. However, only 13 of the
74 letter contracts had been negotiated and 61 contractors (including the 13
contractors that accounted for 93 percent of the contract passenger screening costs)
continued to charge TSA at the proposed hourly billing rates in the letter contracts as
of October 23, 2002. Minimal assurance existed that payments made to screener
contractors were fair and reasonable and security screening services were provided.

Because of the urgency for corrective actions, we sent a memorandum on
July 17, 2002, with a summary of our audit results to the Deputy Secretary of
Transportation, the Under Secretary of Transportation for Security, and the Assistant
Secretary for Budget and Programs. We recommended that TSA require contractors
to provide cost data to finalize contracts by August 31, 2002; prioritize contractors for
audit by DCAA; establish procedures for TSA field representatives to verify actual
hours worked by contractor employees; and recoup improper payments.

TSA agreed with our July 2002 recommendations and contracted in August 2002 with
the DCMA and DCAA for contract administration and audit services, respectively.
As of August 30, 2002, the letter contract files were transferred to DCMA for
negotiation. As of October 23, 2002, DCAA had initiated audits of 14 contractors,
including the 13 contractors that accounted for 93 percent of passenger screening
costs. TSA had received cost data from 52 of the 74 contractors, including 4 of the 6
contractors discussed in this report. However, no DCAA audits were completed and
TSA had negotiated hourly labor rates for 13 of the 74 contractors.

In addition to our work, and at the request of the Associate Under Secretary for
Finance and Administration who had similar concerns, TSA's Office of Inspection
performed similar reviews of two contractors at three airports and found that internal
controls were not followed, contractors billed for employees who were on vacation,
and TSA was charged for services not performed. Because TSA will pay about
$1 billion for screener services, these findings represent a material internal control
weakness. The results of our audit and TSA's inspections have been provided to our
Office of Investigations.
                                                                                     12

RECOMMENDATIONS

We recommend that the Under Secretary of Transportation for Security:

1. Withhold contractor payments until DCAA audits are completed and the final
   hourly billing rates have been negotiated.

2. Recover improper payments to include unsupported overhead costs and
   unallowable costs for meal breaks.

3. Report contract management as a material internal control weakness in the
   Department's 2002 Federal Managers' Financial Integrity Act report to Congress
   and the Office of Management and Budget.

MANAGEMENT COMMENTS

A draft of this report was provided to the Under Secretary of Transportation for
Security on November 15, 2002.         The Under Secretary agreed with our
recommendations and provided the following comments.

In response to our draft report, the Under Secretary expressed how important it is for
the final report to contain adequate background about how these security contracts
were developed and managed. The Under Secretary stated that an ambitious and
necessary charge to TSA was to enter into agreements and transfer any contracts
providing passenger screening security services that existed at the nation's commercial
airports by February 2002.

According to the Under Secretary, the FAA legal and procurement team, operating
with limited staff to meet this unanticipated and unprecedented requirement,
nonetheless generously undertook the lead to put in place contracts with 74 screener
companies and 58 domestic airlines that would allow TSA to meet the February 2002
deadline. FAA accomplished this job on time while managing literally hundreds of
policy questions in order to complete the task.

Although FAA entered into 74 contracts, the total number of task orders and contracts
under the screener program was well in excess of 600 agreements. The initial plan
was to begin to definitize the letter contracts within 90 days, but this proved to be an
unreasonable and unworkable expectation because the vast number of screener
companies were unfamiliar with Federal contracting standards and suffered from a
lack of knowledge about how to prepare a proposal that could be readily validated.

In conjunction with the transition of oversight of all screening operations to TSA in
February 2002, DOT decided not to contract with the then-largest provider of airport
                                                                                  13

screening services, Argenbright, which certainly impacted FAA contract management
staffing and contractor pricing. At the same time, there were numerous variables that
complicated contract definitization, which made it impossible to definitize the
contracts in the manner TSA had initially set.

According to the Under Secretary, TSA faced a severe budget crisis by early summer.
When funding became available, TSA immediately implemented the OIG's
recommendation to employ DCAA to audit the 14 high-risk contracts transferred to
TSA. TSA also hired DCMA to negotiate, definitize, and administer the screening
contracts and airline agreements.

TSA also awarded a contract to conduct floor checks at 11 selected airports and
established procedures to require TSA field representatives to verify that daily time
sheets reflect hours actually worked by contractor employees. In addition to
contractor compliance reviews, TSA implemented extensive voucher examination
procedures to verify daily time sheets and identify additional questioned costs for
possible recoupment by DCMA.

Specific comments by the Under Secretary and updates on TSA actions on the OIG
recommendations are provided below.

Recommendation 1: TSA will withhold contractor payments until DCAA audits are
complete. TSA issued guidance to DCMA on December 6, 2002, to withhold
payments on all invoices received on the largest contracts. TSA is holding over
$90 million in payments to the 14 contractors. As of February 26, 2003, DCMA had
definitized 56 of the 74 contracts. TSA expects to complete all audits and invoice
reconciliation for passenger screening contracts by April 2003.

Recommendation 2: TSA will exercise rights under the contracts to recover
improper payments identified by DCAA. TSA will request that DCMA use the
DCAA audit results for identifying recoveries and offset amounts where improper or
unsupported payments were made, or where unallowable costs were billed. TSA will
follow contractual and legal guidelines for executing recoveries. TSA expects to
complete this action by April 2003.

Recommendation 3: TSA reported contract management of the contract screener
program as a material weakness in the Department's 2002 Federal Managers'
Financial Integrity Act report, and continues to provide monthly updates to DOT on
progress of corrective actions.

The complete text of management comments is in the Appendix.
                                                                                                        14

OFFICE OF INSPECTOR GENERAL RESPONSE

Actions taken and planned by TSA are reasonable. As of February 26, 2003, DCAA
audits had questioned costs of about $149 million which includes projected hours that
may not have been incurred or ever billed. DCAA also had developed audited rates
for five of the six contractors that had substantially increased their billing rates to
TSA. Using the audited rates rather than the contractor-billed rates, TSA will save at
least $67 million on the rate changes alone, as shown in Table 4.

                                        Table 4
                         Comparison of Hourly Rates Billed to TSA
                               With DCAA Audited Rates


                                                     DCAA                             Estimated
                             Hourly Rates            Audited         Difference        Savings
        Contractor            Billed TSA              Rates          Per Hour         (millions)
        Contractor #1            $19.39              $16.58           $2.81              $ 5.6
        Contractor #2            $26.00              $20.34           $5.66              $ 7.4
        Contractor #3            $28.00              $23.81           $4.19             $40.6
        Contractor #4            $19.81                  *                *                 *
        Contractor #5            $24.77              $21.48           $3.29               $9.2
        Contractor #6            $21.37              $19.92           $1.45               $4.2
             -                      -                   -               -               $67.0
       *Contractor #4 had not submitted a proposal as of February 26, 2003. DCAA had audited vouchers
       totaling $118 million and questioned costs of about $33 million (28 percent).


Because TSA is transferring to the Department of Homeland Security (DHS) on
March 1, 2003, we will provide this report, along with TSA action plans and
estimated completion dates, to the DHS Office of Inspector General for followup to
ensure corrective actions are taken.

We appreciate the courtesies and cooperation of DOT, TSA, FAA, DCAA, and
DCMA representatives. If you have any questions concerning this report, please call
me at (202) 366-1992, or John Meche at (202) 366-1496.

                                                      -#-
                                                                                  15


EXHIBIT A. SCOPE AND METHODOLOGY
We interviewed the TSA and FAA Contracting Officers, reviewed letter contract files,
and obtained financial summary data on screener contract funding, obligations, and
payments at TSA and FAA Headquarters.

We selected two airports for our review, one small and one large, and observed
on-site passenger screener activities of the five private security companies at these
airports. We conducted unannounced floor checks at the small and large airport on
May 23 and May 30, 2002, respectively. We observed contractor employees' arrival
and departure times during shift changes to evaluate whether time sheets reflected
actual employee hours worked. We also evaluated whether contractors followed
company policy and procedures for recording and approving employee hours on time
sheets. We traced employee hours recorded on time sheets to contractor invoices
submitted for payment from February 17 through April 30, 2002.

We contacted eight private security companies and visited the corporate offices of
five companies. At the corporate offices, we reviewed employee payroll records to
verify employee pay rates and prior contractor agreement with air carriers, and
documented systems used in generating and supporting invoices. We also requested
documentation in support of hourly billing rates. We contacted eight other private
screener companies and obtained information regarding their billing rates to TSA and
air carriers.

We performed the audit from May through October 2002. We conducted the audit in
accordance with Government Auditing Standards prescribed by the Comptroller
General of the United States. To prepare the final report, we also obtained and used
results from DCAA audits and DCMA negotiations.
                                                          16


EXHIBIT B. MAJOR CONTRIBUTORS TO THIS REPORT
  THE FOLLOWING INDIVIDUALS CONTRIBUTED TO THIS REPORT.


           Name                       Title
        Earl Hedges              Program Director
        Mary Smothers            Project Manager
        George Banks             Senior Auditor
        Michael Weisz            Senior Auditor
        Renee Yancy              Auditor
        Kevin Kelly              Auditor
        Larry Walker             Auditor
        Brian Frist              Analyst
                                                                                            17


APPENDIX. MANAGEMENT COMMENTS


               ___________________________________________________________________
               United States Department of Transportation                   400 Seventh Street, S.W.

               TRANSPORTATION SECURITY ADMINISTRATION                        Washington, DC 20590



                                                                           January 21, 2003


MEMORANDUM TO:                Kenneth M. Mead
                              Inspector General

FROM:                         J.M. Loy, ADM
                              Under Secretary of
                              Transportation for Security

SUBJECT:                      Oversight of Security Contracts, Project Number
                              02F3019F000 – Update

1. Introduction

This memorandum supplements and updates my earlier written comments (November 5,
2002 and December 17, 2002) about progress that the Transportation Security
Administration (TSA) has made in oversight of airport security contracts and our work on
issues raised in your November 15, 2002, draft report on this matter.

It is important that your final Report on Oversight of Security Contracts contain adequate
background about how these contracts were developed and managed, so I have addressed
a few of those matters. In addition, I would like to convey specific comments and
updates on the actions taken by TSA that coincide with the five excellent
recommendations made in your July 17, 2002, memorandum, and the three new
recommendations contained in your draft report.

At the outset, I would like to thank you and your staff for working so closely with TSA in
oversight of these important contracts. Your counsel and support has been invaluable.

2. Background

As you know, the TSA was created under Title I of the Aviation and Transportation
Security Act (ATSA), November 19, 2001, directly in response to the September 11,
2001, terror attacks. An ambitious and necessary charge to the Under Secretary was to
enter into agreements and transfer any contracts providing passenger screening security
services that existed at the nation’s 442 commercial airports by February 19, 2002.
                                                                                        18
Memorandum for Kenneth M. Mead
Subject: Oversight of Security Contracts, Project Number 02F3019F000 – Update



TSA signed a Memorandum of Agreement with the Federal Aviation Administration
(FAA) to negotiate and administer contracts for these passenger and baggage screener
security services until TSA could assume operational responsibility for the screening
program.

On a parallel track, TSA simultaneously launched an aggressive effort to design, test, and
begin initial deployment of the program that would, by year’s end, support an entirely
new federal workforce and to acquire and install technology system to meet the law’s
passenger and checked baggage screening requirements.


3. FAA’s Award of 74 Screener Contracts and 58 Domestic Airline Agreements

The FAA legal and procurement team, also operating with limited staff to meet this
unanticipated and unprecedented requirement, nonetheless generously undertook the lead
to put in place contracts with 74 screener companies and 58 domestic airlines that would
allow us to meet the February 2002 deadline. Managing literally hundreds of policy
questions in order to complete the task, they accomplished this job on time.

Contracts with the airlines were necessary because a considerable amount of screening
and checkpoint supervisory work was being conducted by airline employees. As of the
February transition date, TSA was required to pay for and operationally supervise airline
personnel performing certain specific screening functions. These 58 contracts involved
complex operations at virtually every one of the 442 commercial airports and involved
significant legal and procurement work. The airline contracts were nonetheless executed
and definitized on time and as expected. Managing these contracts was made easier by
the fact that the airlines were generally organized more efficiently to operate under
government contracting requirements.

This was not generally the case with the third party screening companies, which were
operating prior to February 2002 under a much different contracting regime with the
airlines. The Department of Transportation’s (DOT) screening company contracts were
task order contracts, and in many cases they covered more than one airport. For example,
the Worldwide Security Associates contract provided for services 11 airports, therefore
requiring 11 separate task orders or contracts and 11 distinct proposals. A handful of
contracts with the largest screening companies covered many more airports. At
numerous airports, TSA inherited screening contracts with multiple firms within a single
airport.
                                                                                                         19
Memorandum for Kenneth M. Mead
Subject: Oversight of Security Contracts, Project Number 02F3019F000 – Update

Although the FAA entered into 74 such contracts, the total number of task orders and
contracts under the screener program is well in excess of 600 agreements. The initial
FAA/TSA plan was to begin to definitize1 the letter contracts within 90 days from
February 15, 2002, or beginning May 17, 2002. This proved to be an unreasonable and
unworkable expectation.

The vast number of the 74 screener companies were unfamiliar with federal contracting
standards and suffered from a general lack of knowledge about how to prepare a proposal
that could be readily validated. The detailed cost and accounting controls that DOT
demanded were not typically required in the contracts that these security companies had
with the airlines. In order to sort through such issues, FAA extended the deadline for
contractor proposals to begin to definitize each contract until July 23, 2002.

It is essential to understand that the rates contained in the letter agreement contracts
constituted a price ceiling, and were signed with a clear expectation that the definitization
process would generally yield a lower cost to TSA. The letter contract mechanism
allowed TSA to establish “not-to-exceed” rates that were then urgently needed to allow
for the transition to Federal ownership and to formulate an adequate fiscal year 2003
Emergency Supplemental request for TSA airport screening services.

In conjunction with the transition to TSA oversight of all screening operations in
February 2002, the DOT also decided not to contract with the then-largest provider of
airport screening services in the United States, Argenbright. This one firm had
approximately 40 percent of airport screening contracts. TSA undertook steps
immediately after the February transition to move the Argenbright screening services to
other screening companies or directly to the TSA. This was a challenging step, not only
because of the size of the project, but because neither TSA nor potential contractors knew
in early February the schedule for the ultimate transition to TSA screening.

The Argenbright transition certainly impacted FAA contract management staffing and
contractor pricing. The Argenbright contracts were re-competed and outsourced to other
firms with whom TSA had already executed letter agreements. Those firms were
required to modify their initial letter agreements with us to include a modified transition
schedule, work plan, and the estimated expenses associated with this additional work.
TSA worked with contractors around the country to make this transition as soon as
possible after the February contract transition date.

At the same time, there were numerous other variables that complicated contract
definitization. It was simply impossible in February to estimate accurately the turnover



1
 Definitization encompasses having contractors provide cost and pricing data and labor rates for screener
security services; contracts are negotiated consistent with Department of Labor standards. Generally, rates
are jointly negotiated between the contractor and the government. Once the terms of the contract are
negotiated, the contract is signed by the contract screening company and the government.
                                                                                       20
Memorandum for Kenneth M. Mead
Subject: Oversight of Security Contracts, Project Number 02F3019F000 – Update

rate among the screener workforce (new recruits had a new and substantially higher
training cost). TSA was still designing and testing checkpoint and baggage protocols --
we had not yet awarded core contracts needed to conduct deployment assessments and fix
draft transition schedules. Further, Congress significantly cut the President’s
appropriation request and did not appropriate Emergency Supplemental funds until the
end of July 2002, thus delaying and changing our initial deployment plan and schedule.
All of this ultimately made it impossible to definitize the contracts in the manner we had
initially set for TSA.

Immediately after the award of the letter contracts to private screener companies, the
FAA began to administer the contracts. FAA established an entirely new system and for
payment and management of the contracts and the hundreds of task orders for each
airport location. In the first few months, the program office was inundated with
contractual and staffing issues, which were raised by the various contractors and TSA
security responsible for the airport.

Despite these difficulties, I must say that virtually every single one of these companies
made and upheld a very impressive commitment to work with TSA to continue screening
operations, while improving ongoing security operations.


4. Oversight of Screener Contracts

At the time the screener contracts were transferred to FAA on behalf of TSA, the TSA
also lacked operational staffing at the 442 commercial airports nationwide and at TSA
Headquarters. Pulling primarily from FAA field security staff, TSA assigned Interim
Federal Security Representatives (IFSRs) to supervise screening at the nation’s
commercial airports. Working on behalf of TSA, the IFSRs had little or no support staff
and typically represented the only TSA employee presence at the airports. In many
instances, the IFSR was responsible for more than one airport.

Initial guidance by TSA to the IFSRs on June 3, 2002, included orders to assume contract
oversight of the financial functions associated with the screening contracts at each
airport. This decision proved to add an unworkable burden to the already overworked
IFSRs. TSA therefore withdrew guidance requiring on-site contract oversight at
individual airports on July 5, 2002. The first Federal Security Directors (FSD) were
deployed in March 2002 to replace the IFSRs, but meaningful numbers did not complete
training and arrive at their airports until July. Initially, the FSDs too had little
administrative support.

On August 16, 2002, the FAA formally transferred contract administration of the 74
undefinitized screener letter contacts and 58 definitized air carrier agreements to TSA.
TSA reassumed obligation authority of the remaining $560 million in unliquidated
obligations of the $1.2 billion in total programmatic obligations in September 2002. At
                                                                                          21
Memorandum for Kenneth M. Mead
Subject: Oversight of Security Contracts, Project Number 02F3019F000 – Update

that time, 43 of 74 required proposals had been received, with only 39 sufficient to begin
review for definitization. The 39 proposals that were deemed sufficient to begin review
for definitization did not include the largest screening companies.


5. OIG Review of Screener Contracts and TSA’s Adoption of OIG’s Suggestions

In the June 2002, the TSA Office of Inspections conducted a limited review of two
commercial screening companies to determine if adequate procedures to prevent
payments for inappropriate screener charges were in place. They determined that
adequate procedures were not in place. These reviews were at the request of the TSA
Associate Under Secretary for Finance and Administration, who had concerns about
contract administration oversight at airports nationwide and the appropriateness of
screener charges presented to TSA.

Simultaneously, and at the Department’s request, the OIG also conducted similar site
visits to assess these same sets of concerns. The OIG issued a July 17, 2002,
memorandum outlining their findings. On August 2, 2002, TSA’s Office of Inspections
issued a similar report and findings. Both reports confirmed lack of sufficient oversight
due to insufficient resources. Both called for remedial actions and additional resources to
be allocated to this matter.

For a variety of reasons, TSA and the OIG determined that the government’s interests
would best be served by auditing the 14 high-risk contracts first, then completing the
definitization process. TSA developed a risk-based approach to prioritize and review
cost and pricing data, and to audit data and overhead rates in 14 high-risk contractor
proposals representing 93 percent of the dollars obligated against these contracts.

By early summer, TSA faced a severe budget crisis. When funding became available at
the beginning of August, TSA immediately implemented an OIG recommendation to
employ the Defense Contract Audit Agency (DCAA) to audit the 14 high-risk contracts
transferred to TSA. We also hired the Defense Contract Management Agency (DCMA)
to negotiate, definitize, and administer the screening contracts and airline agreements.
Once the audit results were received, negotiation and definitization of the highest risk
contracts could begin.


6. Definitization Process, Airport Visits, Audit Completion and Recoupment

DCMA, on behalf of TSA, immediately began enforcing contract provisions that all
contractors submit cost and pricing data. Contractors were notified that TSA would
consider the option unilaterally to definitize contracts without negotiation if proper cost
proposals were not received.
                                                                                          22
Memorandum for Kenneth M. Mead
Subject: Oversight of Security Contracts, Project Number 02F3019F000 – Update

Additionally, TSA, working with its Office of Inspection and the OIG, drafted a
statement of work to perform additional oversight at Category X, I, and II airports. A
contract was awarded to conduct floor checks at 11 selected airports. TSA provided
preliminary feedback to DCAA and DCMA from weekly reports where there appeared to
be risk factors at these airports. DCAA and DCMA were provided the draft report of
findings for their review in December 2002.

TSA also established procedures to require TSA field representatives to verify that daily
time sheets reflect hours actually worked by contractor employees. Guidance was issued
to all FSDs nationwide to perform floor checks for contractor compliance and additional
oversight. TSA has conducted assessments to gauge the success of this effort and is
currently analyzing the results. TSA has received over 173 FSD floor checks and our
analysis of these results continues. In addition to the compliance reviews conducted by
the contractor, TSA also implemented extensive voucher examination procedures prior to
Contracting Officer Representative providing sign-off. This is to verify available daily
time sheets and identify additional questioned costs for possible recoupment by DCMA.

To date, the supplemental voucher examination program has reviewed $53.2 million in
invoices, with voucher examinations continuing through April 2003. Additional
questioned costs may be identified for potential recoveries under this program as well.


7. Government Withholding of Contractor Invoices and Contract Closure

As you know, to ensure that the government’s interests were served, TSA directed
DCMA to withhold contractor payments until DCAA audits are completed and the final
hourly billing rates have been negotiated. TSA issued guidance via memorandum on
December 6, 2002, for DCMA to withhold payments on all invoices in-house and all
future invoices received on the 14 largest contracts. TSA is holding well over
$90 million in invoice payments to the 14 high-risk contractors.

Because one of the screener contractors was in bankruptcy, minimal payments continued
on this contact to ensure no work stoppages. TSA’s Office of Chief Counsel in
conjunction with the cognizant Assistant U.S. Attorney’(AUSA) will address recoveries
during the bankruptcy proceedings. (By agreement, the bankrupt company cannot
disseminate funds to its creditors without the express permission of the court in
consultation with the AUSA.) TSA is instituting a hotline to afford former contractor
screener personnel a means to provide information that may support additional areas for
recovery by TSA.
                                                                                        23
Memorandum for Kenneth M. Mead
Subject: Oversight of Security Contracts, Project Number 02F3019F000 – Update

8. Conclusion

By mid-February 2003, all of the audits at the largest screening company contracts will
be completed. Data from the completed audits has, of course, been shared with the OIG.
TSA, with the assistance of DCMA and DCAA, is currently working to complete
definitization of all contracts and resolve all final invoices. DCMA is definitizing
contracts not being audited by DCAA. To date, DCMA has definitized 49 of the 74
contracts.

We anticipate having sufficient data for DCMA to identify questioned costs and make
recoveries or deny payments on questioned or improper costs billed or paid by the
government. TSA expects to complete this action by April 2003, unless all final invoices
have not been received. In sum, TSA is working to bring outstanding issues regarding
the screening firm contracts to a prompt close by late April 2003.

Because of the many issues associated with standing up the new agency -- and
acknowledging the management issues outlined herein and in your draft report --
management of these screening company letter contracts has not met the performance
standards that TSA is committed to meet in our contract work. TSA has therefore
reported contract management as a material weakness in the DOT’s fiscal year 2002
Federal Managers’ Financial Integrity Action (FMFIA) report to Congress and the Office
of Management and Budget. The statement and memorandum were submitted to the
Assistant Secretary for Budget and Programs, Office of the Secretary of Transportation,
December 20, 2002.

TSA is committed to ensuring that the FMFIA commitments made in the report are
followed. Obviously we do not expect such weaknesses to recur at TSA. Appropriate
steps have been taken to bring this matter to a complete and responsible close.

We have attached a chart showing critical path dates and decision points that correlate to
the recommendations in your memorandum and draft report, as well as the overall
programmatic responsibilities incurred under the contracts in place during airport
federalization.

We will continue to update you as our progress continues. Again, we again appreciate
the oversight efforts and the OIG partnering with TSA on this most challenging endeavor.
We of course invite and welcome our continued partnership with your office.

Attachment
                                                                                          CONTRACTS IN PLACE DURING AIRPORT FEDERALIZATION - STATUS UPDATE


    World Events           Congress

   WTC/Pentagon              Aviation
                         Transportation
                           Security Act
                        (creation of TSA)


     09/11/2001           11/19/2001




         FAA                  FAA              FAA            FAA            FAA              FAA              FAA             FAA             FAA              FAA

   MOA w/ FAA -          FAA issues 74      FAA program     DOT OIG        TSA Issues      TSA Office of        TSA          DOT OIG            FAA     TSA Office of
delegated contracting    letter contracts      stand-          Site      IFSR Guidance       Inspection      Rescinds         Issues         extended    Inspections
      authority              58 OTAs        up/Replacem    Inspections      for on-site   limited reviews      IFSR         memorandu        contract   Issues results
                                               ent of                        contract                       Guidance for    m on results   proposal due   of limited
                                             Argenbright                     oversight                        on-site        of audits         date         review
                                              Services                                                       contract                       because of
                                                                                                             oversight                        lack of
                                                                                                                                            proposals

     02/12/2002           02/15/2002          2/15/02-     5/00/2002      07/05/2002         6/00/02           7/5/02         7/17/02        07/23/02         8/00/02
                                              6/30/02




         TSA                  TSA              TSA            TSA            TSA              TSA              TSA             TSA             TSA              TSA             TSA               TSA            TSA            TSA            TSA            TSA            TSA              TSA             TSA             TSA


                                                                                                                                                                                                                                                                                              Begin
                                                                                                                                                                                                                                                         DCMA/DCAA                        implementati
    TSA Office of                                                                                                                                                                                                                                           provided                       on of Office
Acquisitions develops                                                                                                                                                           Awarded          DCMA                         Contractor                  preliminary                       of Internal   DCMA begins
risk-based approach                                                                                                          Additional     FSD on-sit       FSD on-site       contract for    directed to    TSA FMFIA         report                   performance                       Affairs and     definitization
   for 14 contracts                                                                                          Return of       oversight       contract       floor checks     COR Voucher         withhold      Material      received for                  results of     DCAA Audits       Program         of 14 high    Recoveries to
representing 93% of                             TSA                                                          Obligation     inspections    policy written        begin        Examination       screener      Weakness         oversight     $53.2M in     oversight      complete with      Reviews      risk contracts be sought on
   funds obligated     FAA Transfers         Receives      TSA signs                      TSA Receives      authority for   begin at Cat   & approved        nationwide       program put     payments on     Reported to   inspections of    voucher     inspections the exception         Hotline for    using DCAA      final invoice
  against contracts   Contracts to TSA       Contracts      MOA w/       TSA signs MOA    Contracts from    $560M from        X, I, & II    by Aviation     for contracts     into place to    14 high-risk   DOT for FY     Cat X, I, & II examinations for Cat I, II, &   of three        Screener         audits as    payments by
     (appx. $1B)      74 Letter 58 OTA       from FAA       DCMA           w/ DCAA             FAA          FAA to TSA        Airports          Ops            in place     review invoices     contracts       2002           Airports        begins      X Airports       reports        Complaints          basis          DCMA

     08/01/2002             08/16/02          08/31/02       8/6/02         8/21/02        08/30/2002       09/19/2002      10/25/02 -     11/06/2002       12/06/2002       12/5/2002-       12/06/2002      12/20/2002     12/20/2002     12/20/2002     12/23/2002     01/09/2002       1/3/2003 -       1/9/2003-       3/31/03-
                                                                                                                             11/15/02                                         4/15/02                                                                                                      2/15/2003         3/15/03        4/30/03

as of 1/08/03
                                                                                                        25



               ___________________________________________________________________
               United States Department of Transportation                    400 Seventh Street, S.W.

               TRANSPORTATION SECURITY ADMINISTRATION                         Washington, DC 20590



                                                             December 17, 2002




MEMORANDUM TO:                Kenneth M. Mead
                              Inspector General

FROM:                         J.M. Loy, ADM
                              Under Secretary of Transportation for Security

SUBJECT:                      Draft Report on Oversight of Security Contracts, TSA
                              Project Number: 02F3019F000

Thank you for providing me with an opportunity to present written comments to your
Draft Report on Oversight of Security Screener Contracts issued November 15, 2002. I
would like to further update you on our oversight efforts.

As you know, the Transportation Security Administration (TSA) continues to actively
work with your staff as we take actions and make plans for ongoing oversight functions.
We are adding your three new recommendations to an attachment that was provided to
you in a November 5th memorandum, and we are updating that attachment. TSA is
addressing the three new recommendations in the following ways:

•   TSA will withhold contractor payments until audits are complete;

•   TSA will exercise rights under the contract to recover improper payments identified
    by the Defense Contract Audit Agency (DCAA); and

•   TSA will ensure that the contract management as a material weakness is reported in
    the Department’s 2002 Federal Managers’ Financial Integrity Action report to
    Congress and the Office of Management and Budget.

Regarding your request for TSA to comment on the validity of the $179 million in
questioned costs, TSA acknowledges that based on the site inspections by the TSA Office
of Inspections and the Department of Transportation’s Office of the Inspector General’s
site-visits early on in the oversight process, the validity to question $179 million exists.
The DCAA has been provided guidance to specifically review for these types of
questioned costs and identify them in their final audit report to TSA. These audits will be
the basis for TSA to exercise rights under the contract to recover improper payments.
                                                                                                           26


I would like to update you on our efforts in the context of the “required actions” you have
suggested that TSA undertake:

       Action Required                            TSA’s Actions Taken and Plans
Enforce contract provisions that     The contractors have been requested to submit cost or pricing data
all contractors submit cost and      as part of TSA’s effort to definitize the contracts.
pricing data

Establish a process to prioritize    TSA signed an agreement with the Defense Contract Management
and review cost and pricing data,    Agency (DCMA) for contract support, including definitization of
to include using the DCAA to         the contracts. The definitization of the contracts will include a
audit the data and overhead rates.   review of the cost or pricing data submitted by the contractors.
                                     The Defense Contract Audit Agency (DCAA) is supporting this
                                     effort, including providing necessary audit review of cost or
                                     pricing data. DCMA and DCAA are working to ensure that rates
                                     are reasonable, based on an appropriate combination of cost and
                                     price analysis, and market research. TSA, DCMA, and DCAA
                                     established a risk-based approach for the review of the cost or
                                     pricing data that places the greatest emphasis on the 13 largest
                                     dollar contracts.
Conduct negotiations and             TSA will use its agreements with DCMA and DCAA to complete
definitize all contracts by August   the definitization of the contracts. DCMA, with the support of
31, 2002.                            DCAA, will definitize the contracts as soon as possible but the
                                     August 31 date cannot be met. Definitization proposals were due
                                     from the contractors on July 23rd. However, FAA had not worked
                                     the proposals received and the transfer to DCMA took place
                                     August 16th. Further, completed proposals have not yet been
                                     received for all contractors. Also, many initial proposals will be
                                     inadequate for negotiation since most of the screener contractors
                                     are unfamiliar with Federal requirements. Additionally, a DCAA
                                     audit requires at least 30 days from submission of a complete
                                     contractor proposal. DCMA will begin negotiations with the
                                     contractors once the audits are completed. TSA understands the
                                     need to prioritize this work based on risk. Therefore, TSA placed
                                     emphasis on definitizing large dollar contracts and those involving
                                     a known risk first, followed by lower risk, small dollar contracts.
                                     DCAA expects to complete the audit of 93 percent of funds
                                     representing on the 13 largest contracts by mid-December 2002.
Expand the statement of work for     With the IG’s input, TSA drafted a statement of work (SOW) to
the oversight contract or enter      accomplish this goal. Until passage of the recent budget
into an agreement with DCAA, as      supplemental, TSA had insufficient resources to fund the contract.
appropriate, to perform oversight    Funding was made available and a contract awarded. The
work as soon as possible.            contractor performed floor checks at 11 selected airports. As part
                                     of its audit work, BearingPoint provided preliminary feedback to
                                     DCAA where there appeared to be risk factors in Category X, I,
                                     and II airports. We expect to provide DCAA a draft report
                                     prepared by BearingPoing the week ending December 13, 2002, of
                                     the results of the floor checks. TSA expects a final report from
                                     BearingPoint by the end of December 2002 for the 11 airports
                                     where floor checks were performed.
                                                                                                               27


Recoup improper payments based         TSA will take steps to recoup any overpayments to the
on finalized overhead rates or         contractors. The preferred method of recouping overpayments is
payments for hours not worked.         immediate garnishment of the full amount on the next invoice.
                                       However, TSA is sensitive to the possibility that this approach in
                                       some circumstances could lead to unacceptable work stoppages.
                                       Deferment and/or partial repayments may be necessary to ensure
                                       contractor solvency, in certain situations, and continued
                                       performance of essential services.
Establish procedures to require        Guidance has been issued to the IFSRs and FSDs at the airports.
TSA field representatives to verify    TSA has conducted assessments to gauge the success of this effort
that daily time sheets reflect hours   and is currently analyzing the results. However, because of a lack
actually worked by contractor          of staffing at the airports to conduct the full range of compliance
employees.                             inspections necessary to ensure the government’s interests, TSA
                                       also plans to use a contractor to conduct additional compliance
                                       reviews. In addition to the compliance reviews conducted by the
                                       contractor, TSA is also implementing extensive voucher
                                       examination procedures prior to COTR signature to verify daily
                                       time sheets.

Withhold contractor payments           TSA advised DCMA to withhold sufficient invoices to cover
until DCAA audits are completed        potential over billings for the 13 largest contracts that do not have
and the final hourly billing rates     hourly billing rates negotiated and where DCAA audits are not
have been negotiated.                  complete. TSA issued that guidance via memorandum to DCMA
                                       on December 6, 2002, to withhold payments on all invoices in-
                                       house and all future invoices received on the 13 largest contracts.
                                       Because ITS is in bankruptcy, payments must continue on this
                                       contact; however, recoveries will be addressed by TSA’s Office of
                                       Chief Counsel during the bankruptcy proceedings. TSA expects
                                       complete invoice reconciliation for passenger screening contracts
                                       by February 28, 2003, unless contractors supply very late invoices
                                       to TSA. In that event, we anticipate reconciliation within 30 days
                                       of receipt of invoice.

Recover any improper payments          TSA will exercise rights under the contract to recover improper
for unsupported or unallowable         payments identified in the DCAA final audits findings. TSA will
costs.                                 request that DCMA use the DCAA audit results for identifying
                                       recoveries and offset amounts where improper or unsupported
                                       payments were made, or where unallowable costs were billed.
                                       TSA will follow contractual and legal guidelines for executing
                                       recoveries. TSA expects to complete this action by February 28,
                                       2003, unless all final invoices have not been received. In that
                                       event, TSA anticipates reconciliation within 30 days of receipt of
                                       invoice.

Again, the information generated by your review of our efforts has proven extremely
helpful. If you have any additional suggestions about how we might improve our over
oversight of the contracts, I would certainly appreciate them. I look forward to our
continued collaboration.
                                                                                               28

              ___________________________________________________________________
              United States Department of Transportation                       400 Seventh Street, S.W.

              TRANSPORTATION SECURITY ADMINISTRATION                           Washington, DC 20590




November 5, 2003


MEMORANDUM TO:                Kenneth M. Mead
                              Inspector General

FROM:                         J.M. Loy, ADM
                              Acting Under Secretary
                              of Transportation for Security

SUBJECT:                      Review of Airport Screening Contracts

Thank you for providing us with an update on your review of the Transportation Security
Administration’s (TSA) oversight of the airport security screening contracts in your
memorandum of July 17, 2002. I would like to update you on our oversight efforts as
well as to request your assistance in conducting additional audit review of the screening
contracts.

As you know, TSA has been actively involved in discussions with your staff since
April 2002 concerning oversight for the screening contracts. TSA has been
implementing a plan to improve the oversight of the contracts which includes the
following:

•      Issuance of field guidance to the Interim Federal Security Representatives
       (IFSR’s) and Federal Security Directors (FSD’s) at the airports;

•      Inspection of selected, non-random sites for billing inconsistencies;

•      Transfer of contract responsibilities from FAA to TSA; and

•      Procurement of contractor services.

Regarding the second item, TSA Inspections has concluded a limited review of screening
contractors for billing inconsistencies at Los Angeles, Seattle, and Spokane airports. As
in the case of your own reviews to date, TSA Inspections has reported a number of billing
problems involving two screening companies, some of which involve inappropriate
charges to TSA. The Associate Under Secretary for Inspections has referred these
contractors to you for investigation. I also would like to request your assistance in
reviewing the billings of other screening contractors to ensure the opportunity for a
                                                                                     29

Memorandum for Kenneth M. Mead
Subject: Review of Airport Screening Contracts


timely follow-up and investigation, if necessary, of any other significant billing
inconsistencies.


Attachment
                                                                                                          30

I would like to update you on our efforts in the context of the “required actions” you have
suggested that TSA undertake:

       Action Required                            TSA’s Actions Taken and Plans
Enforce contract provisions that     The contractors have been requested to submit cost or pricing data
all contractors submit cost and      as part of TSA’s effort to definitize the contracts.
pricing data
Establish a process to prioritize    TSA has signed an agreement with the Defense Contract
and review cost and pricing data,    Management Agency (DCMA) for contract support, including
to include using the DCAA to         definitization of the contracts. The definitization of the contracts
audit the data and overhead rates.   will include a review of the cost or pricing data submitted by the
                                     contractors. The Defense Contract Audit Agency (DCAA) will
                                     support this effort, including providing necessary audit review of
                                     cost or pricing data. DCMA and DCAA will work to ensure that
                                     rates are reasonable, based on an appropriate combination of cost
                                     and price analysis, and market research. TSA will work with
                                     DCMA and DCAA to establish a risk-based approach for the
                                     review of the cost or pricing data that places the greatest emphasis
                                     on large dollar contracts.
Conduct negotiations and             TSA will use its agreements with DCMA and DCAA to complete
definitize all contracts by August   the definitization of the contracts. DCMA, with the support of
31, 2002.                            DCAA, will definitize the contracts as soon as possible but the
                                     August 31 date cannot be met. Definitization proposals were due
                                     from the contractors on July 23rd. However, FAA has not worked
                                     the proposals received and the transfer to DCMA was only
                                     completed on August 16th. Further, completed proposals have not
                                     yet been received for all contractors. Also, many initial proposals
                                     will be inadequate for negotiation since most of the screener
                                     contractors are unfamiliar with Federal requirements.
                                     Additionally, a DCAA audit requires at least 30 days from
                                     submission of a complete contractor proposal. DCMA will begin
                                     negotiations with the contractors once the audits are completed.
                                     TSA understands the need to prioritize this work based on risk.
                                     Therefore, TSA will place emphasis on definitizing large dollar
                                     contracts and those involving a known risk first, followed by
                                     lower risk, small dollar contracts.
Expand the statement of work for     With the IG’s input, TSA has drafted a statement of work (SOW)
the oversight contract or enter      to accomplish this goal. Until passage of the recent budget
into an agreement with DCAA, as      supplemental, TSA has had insufficient resources to fund the
appropriate, to perform oversight    contract. Now that funding has been made available, a contractor
work as soon as possible.            can be selected. The contractor will perform floor checks at
                                     selected airports as part of its audit work and provide feedback to
                                     DCAA where there appears to be risk factors in Category X, I, and
                                     II airports.
Recoup improper payments based       TSA will take steps to recoup any overpayments to the
on finalized overhead rates or       contractors. The preferred method of recouping overpayments is
payments for hours not worked.       immediate garnishment of the full amount on the next invoice.
                                     However, TSA is sensitive to the possibility that this approach in
                                     some circumstances could lead to unacceptable work stoppages.
                                     Deferment and/or partial repayments may be necessary to ensure
                                     contractor solvency, in certain situations, and continued
                                     performance of essential services.
                                                                                                         31


Establish procedures to require        Guidance has been issued to the IFSRs and FSDs at the airports.
TSA field representatives to verify    TSA has conducted assessments to gauge the success of this effort
that daily time sheets reflect hours   and is currently analyzing the results. However, because of a lack
actually worked by contractor          of staffing at the airports to conduct the full range of compliance
employees.                             inspections necessary to ensure the government’s interests, TSA
                                       also plans to use a contractor to conduct additional compliance
                                       reviews. In addition to the compliance reviews conducted by the
                                       contractor.



Again, the information generated by your review of our efforts has proven extremely
helpful. If you have any additional suggestions about how we might improve our
oversight of the contracts, I would certainly appreciate them. I look forward to our
continued collaboration.
